TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                   Recovery Act Provisions for the Health
                 Coverage Tax Credit Were Implemented, but
                 Development Processes Could Be Improved



                                           May 25, 2010

                              Reference Number: 2010-21-057




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS


RECOVERY ACT PROVISIONS FOR THE                     system was ready to process health care
HEALTH COVERAGE TAX CREDIT                          claims, and benefits were provided to
WERE IMPLEMENTED, BUT                               taxpayers. Specifically, in April 2009, the
DEVELOPMENT PROCESSES COULD                         portions of health premiums paid by the
                                                    Government were increased from 65 to
BE IMPROVED
                                                    80 percent. In August 2009, retroactive
                                                    reimbursements for premiums paid during
Highlights                                          enrollment were implemented. The remaining
                                                    features will be rolled out during Fiscal
                                                    Years 2010 and 2011.
Final Report issued on May 25, 2010
                                                    Although the Health Coverage Tax Credit
Highlights of Report Number: 2010-21-057 to         Program Office appropriately executed
the Internal Revenue Service Commissioner           provisions, some project management
for the Wage and Investment Division.               practices needed improvement. Specifically,
                                                    the Program’s system development
IMPACT ON TAXPAYERS                                 processes for requirements and
The improvements to the Health Coverage Tax         configuration management need
Credit included increasing the Government’s         strengthening, testing practices need
portion of health premiums paid from 65 to          improvement, and performance measures
80 percent, reimbursing the taxpayers’ portion      targets should be updated using current
of premiums paid during the enrollment period,      Program estimates. Actions taken to
allowing family members to continue receiving       strengthen the system development
benefits after certain life events, and expanding   processes will improve the effectiveness and
taxpayer eligibility in the Program. Effective      efficiency of future upgrades to the Health
implementation of these provisions was critical     Coverage Tax Credit Program.
to provide taxpayers the benefits mandated by       WHAT TIGTA RECOMMENDED
the American Recovery and Reinvestment Act
of 2009 (Recovery Act).                             TIGTA recommended that the Commissioner,
                                                    Wage and Investment Division, ensure 1) full
WHY TIGTA DID THE AUDIT                             traceability on the requirements traceability
This audit was initiated because the Recovery       matrix, 2) all configuration changes are properly
Act included provisions mandating                   documented and tracked, 3) in-depth analysis of
improvements to and expansion of the Health         test plans, and 4) performance measures targets
Coverage Tax Credit Program. The Health             are suitable for assessing the effectiveness of
Coverage Tax Credit Program provides income         the Program.
tax credits to subsidize health insurance           The IRS agreed with our recommendations and
coverage for individuals displaced from their       stated corrective actions have been taken or
jobs under specific circumstances, which            started. However, the IRS stated that the
ultimately resulted in loss of health insurance     inability to estimate targets did not diminish its
coverage benefits. Our review assessed the          ability to measure outcomes or demonstrate
extent to which the Recovery Act provisions         Health Coverage Tax Credit Program Office
were implemented, Health Coverage Tax Credit        effectiveness. Because the final Fiscal Year
system development was efficient and effective,     2009 results included one performance measure
and benefits were provided to taxpayers.            (Customer Service Representative Level of
                                                    Service) that did not meet the performance
WHAT TIGTA FOUND
                                                    measures targets for the Health Coverage Tax
The Internal Revenue Service (IRS) properly         Credit Program, TIGTA questions whether the
used Recovery Act funds to implement                IRS had sufficient and timely information to
mandated provisions to the Health Coverage          develop accurate performance measures targets
Tax Credit Program. The provisions were             with which to make risk-based decisions in the
completed as mandated by legislation, the           Health Coverage Tax Credit Program.
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                May 25, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Recovery Act Provisions for the Health Coverage
                                 Tax Credit Were Implemented, but Development Processes Could Be
                                 Improved (Audit # 200920130)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 implementation of changes to the Health Coverage Tax Credit (HCTC) Program. The American
 Recovery and Reinvestment Act of 2009 (Recovery Act) 1 included provisions for upgrading the
 HCTC Program. The overall objective of this review was to determine whether the IRS
 established and followed adequate system development processes to ensure efficient and
 effective upgrades of the HCTC Program. This audit was part of our Fiscal Year 2009 annual
 audit plan and addresses the major management challenge of Modernization of the IRS.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS programs.
 This audit was conducted using Recovery Act funds.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.



 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                            Recovery Act Provisions for the
                    Health Coverage Tax Credit Were Implemented,
                    but Development Processes Could Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Health Coverage Tax Credit Program Office Effectively
          Implemented Mandated Recovery Act Provisions and Managed Funds ......Page 3
          Requirements Management Processes Need Improvement..........................Page 5
                    Recommendation 1:........................................................Page 6

          The Configuration Management Process Needs Strengthening ...................Page 7
                    Recommendation 2:........................................................Page 8

          Testing Practices Need Improvement ...........................................................Page 8
                    Recommendation 3:........................................................Page 10

          Performance Measures Targets Should Be Updated Using
          Current Estimates..........................................................................................Page 10
                    Recommendation 4:........................................................Page 11

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Glossary of Terms................................................................Page 17
          Appendix V – Management’s Response to the Draft Report………………Page 19
               Recovery Act Provisions for the
       Health Coverage Tax Credit Were Implemented,
       but Development Processes Could Be Improved




                       Abbreviations

FY               Fiscal Year
HCTC             Health Coverage Tax Credit
IRS              Internal Revenue Service
                          Recovery Act Provisions for the
                  Health Coverage Tax Credit Were Implemented,
                  but Development Processes Could Be Improved




                                             Background

The Health Coverage Tax Credit (HCTC) Program is intended to address the long-term needs in
delivering health insurance benefits to a select group of individuals who might otherwise be
uninsured. For eligible taxpayers, the HCTC Program makes heath care insurance more
affordable by currently paying 80 percent of the health insurance premiums. The HCTC was
created by the Trade Adjustment Assistance Reform Act of 2002,1 and became effective in
August 2003. The HCTC is a unique tax credit, whereby participants can either receive
payments on a monthly basis to help pay for health insurance, or on a yearly basis when filing
their income tax return, where the credit will be applied as a refund or toward any taxes due.
The American Recovery and Reinvestment Act of 2009 (Recovery Act) 2 mandated new
provisions to the HCTC. The Recovery Act changed the HCTC by:
    •    Increasing the portion of health insurance premiums
         paid by the Federal Government from 65 to 80
         percent.                                                 The HCTC is designed to
                                                                provide a Federal income tax
    •    Reimbursing the participants’ portion of premiums        credit subsidizing health
         paid during the enrollment period.                     coverage for individuals who
                                                                might otherwise be uninsured.
    •    Allowing family members to continue receiving the
         HCTC after certain life events.
    •    Expanding taxpayer eligibility in the Program.
The Internal Revenue Service (IRS) created an HCTC Program Office to oversee the design,
development, and overall operations of the HCTC Program. This includes tracking and paying
the Government’s portion of health insurance premiums due for HCTC Program participants.
The HCTC Program Office is also responsible for all phases of the HCTC software development
life cycle, beginning with a detailed analysis of business and technical requirements and ending
with system deployment.
Because the population of taxpayers enrolling in the HCTC Program is continually increasing,
outdated system hardware presented a risk. The HCTC Program Office deemed it necessary to
upgrade the HCTC system and worked with a contractor to make the needed improvements. The
system upgrades to implement the Recovery Act mandates were implemented in three phases.
HCTC Release 3 9 focused on delivering the increased HCTC and the retroactive health care


1
  Pub. L. No. 210-116; Stat. 933.
2
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
3
  See Appendix IV for a glossary of terms
                                                                                      Page 1
                       Recovery Act Provisions for the
               Health Coverage Tax Credit Were Implemented,
               but Development Processes Could Be Improved


premium reimbursements, and Release 10 focused on the remaining Recovery Act provisions
and hardware and software upgrades.
The Recovery Act activities require a high level of scrutiny and taxpayer dollars spent on
economic recovery must be subject to unprecedented levels of transparency and accountability.
Federal agencies are required to ensure Recovery Act funds are used for authorized purposes and
appropriate measures are taken to prevent fraud, waste, and abuse. As such, the Treasury
Inspector General for Tax Administration is required to monitor the IRS implementation of
Recovery Act provisions, and this audit was conducted to meet those requirements.
This review was performed in the IRS HCTC Program Office in Washington, D.C., and the
contractor site in Reston, Virginia, during the period May through December 2009. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                      Page 2
                       Recovery Act Provisions for the
               Health Coverage Tax Credit Were Implemented,
               but Development Processes Could Be Improved




                                Results of Review

The Health Coverage Tax Credit Program Office Effectively
Implemented Mandated Recovery Act Provisions and Managed Funds
The IRS effectively used Recovery Act funds to implement the mandated provisions to the
HCTC Program. Specifically, the Recovery Act provisions were completed as mandated by
legislation, the HCTC system was ready to process health care claims, and benefits were
provided to taxpayers. In March 2009, the HCTC Program Office, working in conjunction with
the IRS business owners, evaluated the Recovery Act legislative provisions and initiated a plan
for implementation. The HCTC Program Office monitored and met the development milestone
dates for both HCTC Release 9 and 10.
Recovery Act provisions were successfully implemented
The IRS successfully developed three HCTC system releases to implement the Recovery Act
provisions. Beginning in April 2009, the HCTC Program Office increased the credit percentage
paid from 65 to 80 percent of qualified health insurance premiums. In August 2009, Release 9
delivered the increased tax credit and allowed for retroactive reimbursements for health care
premiums paid while enrolling in the monthly HCTC Program. Release 10 was implemented in
December 2009 and increased the eligibility for qualifying family members who would
otherwise become ineligible and lose health insurance coverage due to a change in the recipient’s
Medicare status or as a result of family death or divorce. Release 10 also included hardware and
software upgrades to the HCTC system.
The HCTC Program Office completed a number of HCTC project management business
processes to ensure provisions required by the Recovery Act were implemented and provided the
intended benefits to taxpayers. Review of available documentation demonstrated the HCTC
project team successfully implemented the HCTC project management plan. This plan served as
the overall guiding document used by the HCTC project team to ensure the system materialized
as mandated by the Recovery Act. The project plan outlined the project’s objectives, parties
involved in project planning and execution, and the overall time period and delivery strategy for
the project. These business practices aided in ensuring the HCTC system was available to
process health care claims. These practices included:
   •   Justifying the need for the HCTC enhancements and reporting needed funding.
   •   Managing requirements.
   •   Managing risks.


                                                                                       Page 3
                            Recovery Act Provisions for the
                    Health Coverage Tax Credit Were Implemented,
                    but Development Processes Could Be Improved



      •    Managing project schedule.
      •    Performing/conducting peer reviews.
      •    Reporting activities.
      •    Testing strategy.
      •    Developing a project management plan.
Benefits from changes to the HCTC Program are being realized
The IRS effectively promoted and provided HCTC benefits to taxpayers. The IRS redesigned
the HCTC Program Kit and Registration Form to simplify customer registration and increase
benefits to taxpayers, and enrollment in the HCTC Program increased from 14,765 in April 2009
to 20,722 by January 2010. Additionally, the new HCTC Program Kit reduced printing costs by
one-half and created a cost savings of approximately $100,000, with an additional cost savings of
more than 40 percent for future print orders.
In order to determine whether the HCTC applies, there are education and outreach activities
designed to assist taxpayers (i.e., public service announcements were developed and underway in
certain States). The HCTC Program Office reports positive feedback from use of these activities.
**********************1******************************************************
*****************************************************************************
***********.
The HCTC Program Office is responsible for informing potential eligible taxpayers about the
credit, enrolling eligible applicants into the Program, and making payments to health plans on
their behalf. The intent of the Recovery Act legislation related to the HCTC is to provide those
American taxpayers who are eligible with the opportunity to take advantage of this Program in
order to ease their economic stress.
Recovery Act funding for the HCTC is being managed
The HCTC Program Office is actively monitoring expenditures to ensure they do not exceed the
funds obtained and executing measures to implement Program requirements. Federal agencies
are required to ensure Recovery Act funds are used for authorized purposes and appropriate
measures are taken to prevent fraud, waste, error, and abuse. The Recovery Act reporting
activities are designed to track Recovery Act tax provision benefits.
As of September 30, 2009, the HCTC Program Office obligated and/or expended $15.2 million,
or 67 percent of its $22.8 million base year budget. 4 A spending plan was completed to project
and track costs for each year of the investment contract. By February 2011, the HCTC Program
Office forecasts the use of all Recovery Act funding on future releases and additional


4
    The base year of the task order goes from February to September 2009.
                                                                                        Page 4
                       Recovery Act Provisions for the
               Health Coverage Tax Credit Were Implemented,
               but Development Processes Could Be Improved


functionalities. Calculating the appropriate funding needed for the potential health coverage
effort was a challenge for HCTC Program executives. The funding needs were based on
potential enrollment figures, which were difficult to estimate. Although specific funding for the
HCTC Program was designated in the IRS 2009 budget, HCTC Program executives were able to
obtain additional Recovery Act funding of $80 million for Fiscal Years (FY) 2009 – 2010 HCTC
business and technology investments.
While the mandated changes were successfully implemented and Recovery Act funds were
monitored, the development processes followed by the IRS to make these changes could be
improved.
Requirements Management Processes Need Improvement
Requirements Management is used for analyzing and verifying whether an organization’s
developed solution meets the needs of customers and internal/external stakeholders. In a
combined effort, project team members and stakeholders identify organizational objectives and
constraints, as well as develop and facilitate program changes and requirements. It also includes
requirements traceability which documents the life cycle of a requirement.
The requirements traceability matrix for Release 9 was not all inclusive and needed further
development. Specifically, the matrix:
    •   Did not trace to specific work products.
    •   Did not trace all requirements to a test case.
    •   Contained one approved requirement erroneously tested by using a description different
        from that as prescribed on the matrix.
Without complete traceability, the IRS cannot ensure adequate development of requirements and
tracing, potentially resulting in requirements not being satisfied. Missing or invalid requirements
could jeopardize the IRS’ ability to deliver health insurance benefits to taxpayers and/or
noncompliance with mandated HCTC legislature.
The Software Engineering Institute’s Capability Maturity Model Integration states projects
should maintain traceability between all source and product requirements. The Enterprise Life
Cycle directs project teams to verify contractors maintain traceability over project life cycle
application requirements, thus ensuring each one is mapped to its higher level requirement.
A complete tracing of requirements was not accomplished due to the aggressive time period
required to implement the HCTC provision. The discrepancies involving insufficient matrix
traceability to work products and test cases were discussed with the HCTC Program Office on
September 11 and 25, 2009, but a subsequent review of the final requirements traceability matrix
determined the issues were still not corrected.


                                                                                         Page 5
                       Recovery Act Provisions for the
               Health Coverage Tax Credit Were Implemented,
               but Development Processes Could Be Improved


Signatures annotating matrix approval are needed from all stakeholders
There was no documented evidence that the baseline requirements traceability matrix was
approved. Specifically, the April 24, 2009, matrix did not have signatures from either the Wage
and Investment Division business sponsor or internal stakeholders endorsing their review of the
baseline requirements. To ensure the system delivers the intended benefits and provides credible
information, it is imperative internal stakeholders approve the baseline requirements.
According to the Enterprise Life Cycle, requirements management is the process where baseline
requirements are defined, formalized, managed, controlled, and verified. The HCTC Program
Office indicated there was not a formal process requiring business sponsors or internal
stakeholders to provide signatures on the matrix. However, effective requirements management
builds upon the appropriately documented review and approval of baseline requirements.
Management Action: During a September 11, 2009, discussion, the HCTC project executive
stated her single signature on the matrix represented an overall acceptance by the HCTC
Program Office business operations team lead personnel. Subsequently, the HCTC Program
Office agreed the matrix should contain documented signatures from the business sponsor and
internal stakeholders, concluding this change would take effect for the Release 10 matrix. The
IRS subsequently reported that the signatures of the Director, Electronic Tax Administration and
Refundable Credits; Systems Operations Lead; Business Operations Lead; Payment Operations
Lead; and Program Management Office Lead were included on the Release 10 baseline
requirements by December 4, 2009.
Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should ensure that
for ongoing and future system upgrades, the HCTC Program Office completes full traceability on
the requirements traceability matrix, including mapping of all requirements to high-level
requirements, and tracing to the final product requirements. These include changes, source
codes, and any manual referencing accomplished.
       Management’s Response: The IRS agreed with the recommendation. The IRS
       stated the recommendation outlines its standard processes and has already taken action.
       The HCTC Program Office completed full traceability of the Release 9 requirements
       traceability matrix on August 19, 2009, following system implementation per its standard
       process. The requirements traceability report contains some requirements that do not call
       for mapping to test cases or build components.
       Office of Audit Comment: The IRS noted that corrective action was accomplished
       during the review. However, documentation supporting the corrective action was not
       provided to us during the review, so we were unable to validate the actions taken. As a
       result, corrective action will be validated during the subsequent review of the HCTC
       Program Office (Audit Number 201020101) currently in process.

                                                                                      Page 6
                       Recovery Act Provisions for the
               Health Coverage Tax Credit Were Implemented,
               but Development Processes Could Be Improved



The Configuration Management Process Needs Strengthening
The Change Control Log (a process used by the HCTC Program Office for documenting all
change requests) did not capture complete data for documenting and tracking change requests.
For example, the change control log did not include the originator’s name or impact of the
change request. Specifically, after creation of baseline requirements, individual change request
forms were not retained on requirements modified. Rather, the Change Control Log, which
provided a brief description and/or comment, was used for documenting change requests.
Additionally, the information supporting approved change requests was not captured on the
contractor’s database. The September 25, 2009, control log contained 50 approved change
requests; however, according to the HCTC Program Office, information was not always captured
in the contractor’s database.
Change request forms contain project data and information necessary to forecast program costs
and schedules, resulting in a greater assurance for successful delivery of the program’s intended
benefits. The Configuration Management Plan outlines the following processes for effecting
change requests:
   •   Identify potential change/error.
   •   Document change/error.
   •   Analyze change/error.
   •   Obtain authorization.
   •   Implement and migrate change.
   •   Update Requirements Traceability Matrix.
Although the Configuration Management Plan outlines change control procedures, the HCTC
configuration management process does not contain specific guidelines to capture change request
information, such as requestor’s name, cost, and schedule impacts. The HCTC Program Office
maintained a Change Control Log which does not give specific or pertinent change request
information. Additionally, they relied on the contractor’s Application Management and
Operating System to track and support information on change requests. The Application
Management Operating System database is used to capture items that are changed in the
production system, in accordance with the Configuration Management Plan.
Management Action: During a November 30, 2009, discussion, HCTC Program management
agreed the Change Control Log should be modified to capture more data, specifically to
incorporate the impact on cost and schedule changes. Subsequently, the January 27, 2010,
updated Change Control Log template reflected a modification to include the impact of cost and
schedule changes.




                                                                                        Page 7
                        Recovery Act Provisions for the
                Health Coverage Tax Credit Were Implemented,
                but Development Processes Could Be Improved



Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should ensure that
for ongoing and future releases, the HCTC Program Office updates the Configuration
Management Plan to include procedures to verify all configuration changes are properly
documented and tracked.
       Management’s Response: The IRS agreed with the recommendation, stating it has
       already implemented additional corrective actions. As part of the standard process, all
       change requests are documented in a change control log during the development phase.
       All HCTC Release 9 and Release 10 change requests were reviewed and approved by the
       HCTC Program Office and had no effect on cost and schedule. Therefore, the IRS did
       not include those metrics. Cost and schedule were included in the change control log
       effective November 11, 2009. Further, the Configuration Management Plan was updated
       January 29, 2010, to include a clear differentiation of how change requests are managed
       during development, maintenance, and operations.
       Office of Audit Comment: The IRS noted that corrective action was accomplished
       during the review. However, documentation supporting the corrective action was not
       provided to us during the review, so we were unable to validate the actions taken. As a
       result, corrective action will be validated during the subsequent review of the HCTC
       Program Office (Audit Number 201020101) currently in process.
Testing Practices Need Improvement
Various testing and requirements management processes are needed to ensure functional and
technical specifications are met. These processes are key management controls IRS executives
use as credible information upon which to base managerial decisions.
Additional actions are needed to ensure a structured approach to testing
Results for Release 9 User Acceptance Testing disclosed that test practices needed to be
developed and test documents contained missing or incomplete information. The HCTC
Program Office stated the timing of requests and versioning of documentation created errors.
Although HCTC Program personnel created a central repository spreadsheet to collect test script
data for all test cases, the information was incomplete. On a query of the universe of 37,602 test
scripts, 1,410 were missing expected test results which are used by testers to conclude whether
the test cases passed, failed, or were not tested. Additionally, there were two incomplete test
cycle control sheets. Further, in the final test results documentation, it was noted that many test
scripts were either not clear or outdated.
Documentation for all tests must be complete and contain sufficient information to ensure the
test results can be relied on to ensure the system is delivering its intended benefits and that there
are not any usability issues. To ensure effective and efficient Program operation, the HCTC

                                                                                           Page 8
                       Recovery Act Provisions for the
               Health Coverage Tax Credit Were Implemented,
               but Development Processes Could Be Improved


Program Office relies on contractor support in key areas, one of which is testing. The Software
Engineering Institute Software Capability Maturity Model Integration outlines a series of
processes and tasks for project software testing. These processes include planning, resource
allocation, test development, and test effort and result monitoring. Tasks include defining test
cases, expected results, procedural steps, and tracing test cases to their requirements.
Management Actions: During User Acceptance Testing in August 2009, the HCTC Program
Office and contractor jointly tested and validated functional and business requirements. On
September 22, 2009, we informed the HCTC Program Office of the insufficient strategy
practices used during User Acceptance Testing. The HCTC Program Office agreed that for
Release 10, individuals selected to perform the testing would have a greater knowledge of the
HCTC system. Participants selected to perform Release 10 testing during the week of
November 30, 2009, were composed of HCTC business users (the IRS and contractor)
representing each functional area of the scripts being tested. Also noteworthy, a review of tests
developed for Release 10 was comprehensive in terms of scope, functionality, technical
coverage, and business participation. Test results were sufficiently documented.
Waived and deferred test cases should be approved and documented
Numerous waived and deferred test cases did not have a corresponding Test Case Waiver and
Deferral form, which is used to state the reason a test was not performed and document the
waiver/deferral approval via a relevant stakeholder’s signature. Without proper support and
approval for changes to test cases, business and functional requirements may not be adequately
tested to ensure the system provides the needed functionality.
The IRS’ Test Case Waiver and Deferral procedures define a waiver request as eliminating the
obligation, due to various reasons, for executing a test case and thus altering the test plan. Test
case requirements must either be approved for deletion and/or verified as being included for
testing in another test case. The IRS’ procedures outline processes for tailoring a program
specific Test Case Waiver and Deferral form to include the necessary format for use in removing
a particular test case or phase. Additionally, procedures require that all changes to test cases
have a corresponding rationale and approval.
During a September 11, 2009, audit discussion, the HCTC Program Office stated it was unaware
of IRS procedures requiring waived and deferred test cases to have a corresponding Test Case
Waiver and Deferral form. Additionally, personnel stated the waived test cases were a result of
the test scripts having already been tested and listed in templates for prior HCTC releases. As
such, performing an in-depth analysis of test plans prior to beginning each Program release
would eliminate erroneously listing previously tested requirements. In the event a test case is
erroneously included, a corresponding Test Case Waiver and Deferral needs to document the
status.
Management Action: A copy of the Modernization and Information Technology Services
organization Test Case Waiver and Deferral Procedure, dated November 2006, was provided to

                                                                                         Page 9
                       Recovery Act Provisions for the
               Health Coverage Tax Credit Were Implemented,
               but Development Processes Could Be Improved


HCTC Program Office personnel during an October 26, 2009, audit discussion. On
January 27, 2010, the HCTC Program Office provided two HCTC specific Test Case Waiver and
Deferral forms that were used to approve deferred test cases for Release 10. Management action
taken should resolve this issue.
Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should ensure that
the HCTC Program Office performs an in-depth analysis of test plans prior to beginning each
Program release for elimination of previously tested requirements and, in the event a test case is
erroneously included, completes the Test Case Waiver and Deferral form for approving its
removal.
       Management’s Response: The IRS agreed with the recommendation to implement a
       waiver and deferral process and has implemented the corrective actions within HCTC
       Release 10. The IRS stated it completed the implementation of the waiver and deferral
       process, peer review of test cases, and removal of test cases from test plans that were no
       longer applicable. The process documented with Release 10 outlines the procedures for
       authorizing the deferral or waiver of a test case, condition, script, or scenario, and
       addresses documentation, submission, approval, and signatures.
       There were scripts included in the Release 9 test plan that are no longer in scope for the
       HCTC. These scripts represented historical requirements that were never implemented,
       or are no longer necessary, as well as requirements with no system impact. During
       Release 9, test scripts that were not applicable were marked as “not tested” in the test
       script spreadsheet, per existing processes. At the time of the review, Release 9 scripts
       were correctly tested in accordance with the existing process in place at the time. Prior to
       Release 10 test execution, the test plan and detailed test scripts were updated to remove
       the test scripts and other references that were no longer applicable.
       Office of Audit Comment: The IRS noted that corrective action was accomplished
       during the review. However, documentation supporting the corrective action was not
       provided to us during the review, so we were unable to validate the actions taken. As a
       result, corrective action will be validated during the subsequent review of the HCTC
       Program Office (Audit Number 201020101) currently in process.
Performance Measures Targets Should Be Updated Using Current
Estimates
Although the HCTC Program Office used satisfactory processes to determine performance
measures, they were unable to meet all performance measures targets. As documented in the
results of the monthly performance measure reviews, established measures did not consistently
meet monthly or FY 2009 targets. Specifically, the final FY 2009 results included one
performance measure (Customer Service Representative Level of Service) that did not meet the
                                                                                        Page 10
                       Recovery Act Provisions for the
               Health Coverage Tax Credit Were Implemented,
               but Development Processes Could Be Improved


FY 2009 performance measures targets for the HCTC Program. As such, the IRS has already
established a risk stating the HCTC Program is not on track to meet annual performance
measures targets forecast for FYs 2009 through 2011.
The Internal Revenue Manual requires targets being set for any measure to include a review of
statistics for the previous year’s results, historical patterns, and availability of resources.
Additionally, as priorities change and new program requirements evolve, the suite of measures
included in the budget must adjust to changing circumstances.
The original performance measures targets were established using Program statistics prior to the
new HCTC legislative requirements being passed in the Recovery Act. Although these
requirements significantly increased the volume of enrollees in the HCTC Program, performance
measures targets were not created using the new data as a baseline. An accurate measurement of
the Program’s effectiveness cannot be accomplished when using obsolete targets.
Due to the inaccurate targets used for performance measures, the HCTC Program Office planned
to conduct an assessment addressing the accuracy of the baseline for FY 2011 once they
determined population and operational volumes stabilized. However, launching a system of this
nature in a live setting is inherently risky and, therefore, adjusting the performance baseline as
soon as possible would provide a more accurate snapshot of system effectiveness.
Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, should ensure that
the HCTC Program Office uses current FY 2010 data to develop performance measures targets
for FY 2011. Additionally, applicable current fiscal year data should be used when developing
performance measures targets for future years to ensure accurate representation of the HCTC
Program’s effectiveness.
       Management’s Response: The IRS agreed with the recommendation. The IRS
       acknowledges that new performance measures targets should be established for FY 2011
       and intends to baseline several of the performance measures targets using FY 2010 data
       in order to develop new targets for FY 2011. However, the IRS stated that its inability to
       estimate targets did not diminish its ability to measure outcomes or demonstrate HCTC
       Program Office effectiveness. In FY 2009, agreement was obtained from the Wage and
       Investment Division Operations Strategy Board and the Department of the Treasury that
       FY 2010 would be a baseline year for many of the performance measures targets. Many
       of the HCTC measures are based on workload and enrollee volumes, which fluctuated
       widely due to the uncertain nature of the expanded HCTC population. The HCTC
       Program Office collects monthly information and shares the results with IRS leadership
       and the Department of the Treasury.
       Office of Audit Comment: The audit recommendation is intended to ensure the
       HCTC Program Office uses current FY 2010 data to develop performance measures

                                                                                       Page 11
               Recovery Act Provisions for the
       Health Coverage Tax Credit Were Implemented,
       but Development Processes Could Be Improved


targets for FY 2011, which would provide better performance measures. Because the
final FY 2009 results included one performance measure (Customer Service
Representative Level of Service) that did not meet the performance measures targets for
the HCTC Program, we question whether the IRS had sufficient and timely information
to develop accurate performance measures targets with which to make risk-based
decisions in the HCTC Program. Updating performance measures targets provides
complete historical information needed for accurate rebaselining.




                                                                              Page 12
                       Recovery Act Provisions for the
               Health Coverage Tax Credit Were Implemented,
               but Development Processes Could Be Improved



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS had established and
followed adequate system development processes to ensure efficient and effective upgrades of
the HCTC Program. Specifically, we determined whether the upgrades to the HCTC system
1) were completed as mandated by legislation, 2) were ready to process HCTC claims, and
3) provided the intended benefits to the IRS and taxpayers for the filing season. To accomplish
this objective, we:
I.     Determined whether the HCTC Release 9 development provided the planned capabilities.
       A. Determined whether testing support processes for the releases were adequately
          planned for deployment.
           1. Determined whether all entrance and exit criteria were being met prior to
              initiating and exiting the various testing cycles by obtaining and reviewing the
              final test reviews for each testing cycle.
           2. Determined whether the HCTC project team adequately controlled waivers and
              deferrals during the various test cycles.
              a) Obtained copies of the test case deviation and waiver forms and determined
                 whether they were processed and approved. All requests should be submitted
                 in writing using the test case deviation and waiver form. All approved
                 requests should have Program-level signatures.
              b) Determined the effect or impact of each test waiver or deviation approved.
              c) Ensured that deviation test cases from a test cycle were subsequently tested.
           3. Determined whether all aspects of the application were tested.
              a) Matched the requirements listed in the Program Improvement Form
                 Requirement Report to the requirements listed in the Requirements
                 Traceability Verification Matrix. If there were mismatches, determined why,
                 e.g., a change request added or deleted a requirement, or the Requirements
                 Traceability Verification Matrix was not complete.
              b) Verified that all requirements listed in the Requirements Traceability
                 Verification Matrix have a test case. If not, determined why and how these
                 requirements were verified and validated.


                                                                                      Page 13
                       Recovery Act Provisions for the
               Health Coverage Tax Credit Were Implemented,
               but Development Processes Could Be Improved


              c) If specific requirements were not testable, determined what type of assurance
                 was provided to ensure that specific features function as intended.
              d) Reviewed test results to determine whether the system performed as intended
                 (e.g., unit testing, string testing, compatibility testing, user testing, test plan
                 results, end of test status reports).
       B. Determined whether requirements management activities were adequately planned for
          and whether the system is ready to process HCTC claims and provide the intended
          benefits to the IRS and taxpayers as mandated by authorizing legislation.
           1. Interviewed the HCTC Program Office to determine how requirements were
              identified and validated based on the Recovery Act.
           2. Reviewed how requirements were baselined (e.g., requirements specification
              documents, legislation requirements traceability matrix, program improvement
              form).
           3. Reviewed documentation showing how changes to the requirements were tracked,
              monitored, and approved (e.g., the requirements specification document,
              requirements traceability matrix).
           4. Reviewed documentation to support management’s oversight in the requirements
              management process (e.g., meeting minutes, email, management reports).
II.    Determined whether the HCTC Program Office had adequately implemented the new
       legislation mandates.
       A. Interviewed the HCTC Program Office to determine how performance measures were
          used to determine Program success.
       B. Reviewed the performance measures results to determine whether service levels were
          met.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: sound project management guidelines for
developing and testing requirements. We evaluated these controls by interviewing management
and reviewing requirements, testing documentation, and performance measures.




                                                                                         Page 14
                      Recovery Act Provisions for the
              Health Coverage Tax Credit Were Implemented,
              but Development Processes Could Be Improved



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Scott A. Macfarlane, Director
Kimberly R. Parmley, Audit Manager
Charlene L. Elliston, Lead Auditor
Tina Wong, Senior Auditor
Melinda H. Dowdy, Auditor




                                                                                  Page 15
                      Recovery Act Provisions for the
              Health Coverage Tax Credit Were Implemented,
              but Development Processes Could Be Improved



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner, Wage and Investment Division SE:W
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Program Manager, Health Coverage Tax Credit, Wage and Investment Division SE:W:HCTC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W
       Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL




                                                                                  Page 16
                        Recovery Act Provisions for the
                Health Coverage Tax Credit Were Implemented,
                but Development Processes Could Be Improved



                                                                           Appendix IV

                            Glossary of Terms

Change Request                   The medium for requesting approval to change a baselined
                                 product or other controlled item.

Configuration Management         Involves establishing proper control over approved project
                                 documentation, hardware, and software and assuring
                                 changes are authorized, controlled, and tracked.

Deferral                         An approved request for verification of a requirement or
                                 set of requirements to be moved to another phase of
                                 testing.

Enterprise Life Cycle            A structured business systems development method that
                                 requires the preparation of specific work products during
                                 different phases of the development process. The
                                 Enterprise Life Cycle establishes a set of repeatable
                                 processes and a system of reviews, checkpoints, and
                                 milestones that reduce the risks of system development
                                 and ensure alignment with the overall business strategy.

Filing Season                    The period from January through mid-April when most
                                 individual income tax returns are filed.

Release                          A specific edition of software.

Requirement                      A formalization of a need and is the statement of a
                                 capability or condition that a system, subsystem, or
                                 system component must have or meet to satisfy a contract,
                                 standard, or specification.

Requirements Traceability        A matrix developed and continually updated that links
Matrix                           each requirement to a test case. The matrix provides
                                 important information on system testing and functionality
                                 status.



                                                                                Page 17
                       Recovery Act Provisions for the
               Health Coverage Tax Credit Were Implemented,
               but Development Processes Could Be Improved



Software Engineering Institute     A Federally Funded Research and Development Center
                                   whose purpose is to help others make measured
                                   improvements in their software engineering capabilities.

Software Engineering Institute’s   A process improvement approach that provides
Capability Maturity Model          organizations with the essential elements of effective
Integration                        processes.

Test Scripts                       A series of instructions written for, and specific to,
                                   performing each test case.

Traceability                       Traceability of requirements can be established from the
                                   source requirement to its lower level requirements and
                                   from the lower level requirements back to their source.
                                   Such traceability helps determine that all source
                                   requirements have been completely addressed and that all
                                   lower level requirements can be traced to a valid source.




                                                                                     Page 18
           Recovery Act Provisions for the
   Health Coverage Tax Credit Were Implemented,
   but Development Processes Could Be Improved



                                                  Appendix V

Management’s Response to the Draft Report




                                                     Page 19
        Recovery Act Provisions for the
Health Coverage Tax Credit Were Implemented,
but Development Processes Could Be Improved




                                               Page 20
        Recovery Act Provisions for the
Health Coverage Tax Credit Were Implemented,
but Development Processes Could Be Improved




                                               Page 21
        Recovery Act Provisions for the
Health Coverage Tax Credit Were Implemented,
but Development Processes Could Be Improved




                                               Page 22
        Recovery Act Provisions for the
Health Coverage Tax Credit Were Implemented,
but Development Processes Could Be Improved




                                               Page 23
        Recovery Act Provisions for the
Health Coverage Tax Credit Were Implemented,
but Development Processes Could Be Improved




                                               Page 24
